Office of
Inspector General
             Farm Credit System Building Association
                                 Business Practices

                                              03-02




                              March 9, 2004
                                                                       FCSBA BUSINESS PRACTICES
                                                                                      AUDIT 03-02

Farm Credit Administration                            Office of Inspector General
                                                      1501 Farm Credit Drive
                                                      McLean, Virginia 22102-5090
                                                      (703) 883-4030




March 9, 2004


The Honorable Michael M. Reyna
Chairman of the Board and
       Chief Executive Officer
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102

Dear Mr. Reyna:

The Office of the Inspector General (OIG) completed an audit of the businesses practices of
the Farm Credit System Building Association (FCSBA). The objective of this audit was to
determine if the FCSBA is providing the FCA Board enough information about its operations
to enable the Board to properly oversee FCSBA operations.

The audit identified actions for the FCA Board to direct improvements in the operations of the
FCSBA. Most significantly, the improvements should contribute to helping the Board
exercise its duties with respect to the FCSBA. Your response of March 3rd on behalf of the
Board is included in the report. The response commends the report and evidences a
commitment to the spirit and intent of the recommendations. Furthermore, the Acting
President has made some improvements and has others planned. Accordingly, we have
revised our recommendations to reflect they are mutually agreed upon actions.

We conducted the audit following Government Auditing Standards issued by the Comptroller
General for audits of Federal organizations, programs, activities, and functions.      We
conducted fieldwork from June 14, 2003 through August 20, 2003. We provided a discussion
draft report to the FCA Liaison and the FCSBA Acting President on October 17, 2003. We
held an exit conference and discussed the draft report with FCA officials, the FCSBA Acting
President, and the Audit Follow-up Official on December 10, 2003. A revised draft was
issued on January 6, 2004 as a result of the exit conference. We sincerely appreciate the
cooperation extended by the FCSBA staff, FCA staff, and the FCA Board.

If you have any questions about this audit, I would be pleased to meet with you at your
convenience.

Respectfully,



Stephen G. Smith
Inspector General
                                                                       FCSBA BUSINESS PRACTICES
                                                                                      AUDIT 03-02


                                        CONTENTS

BACKGROUND ____________________________________________________________________________ 1

EXECUTIVE SUMMARY____________________________________________________________________ 1

SCOPE AND METHODOLOGY ______________________________________________________________ 2

FINDINGS AND RECOMMENDATIONS ______________________________________________________ 2
    IMPROVE BUDGET INFORMATION TO THE FCA BOARD __________________________________________ 2
      Update the Capital Improvement Plan____________________________________________________ 2
      Establish Clearer Performance Goals ____________________________________________________ 3
      Improve Consistency of Cost Information_________________________________________________ 3
      Develop Supporting Cost Analyses ______________________________________________________ 3
      Provide Budget Proposals Earlier _______________________________________________________ 3
    AGREED UPON ACTIONS:___________________________________________________________________ 3
   FCSBA Quarterly Reporting Improved _____________________________________________________ 4
     Status of Reviews ___________________________________________________________________ 4
     Status of Projects and Goals ___________________________________________________________ 4
     Status of Expenses___________________________________________________________________ 4
   AGREED UPON ACTION: ___________________________________________________________________ 5
    OPPORTUNITIES TO ENHANCE FCSBA OPERATIONS ____________________________________________ 5
   Internal Controls Strengthened ___________________________________________________________ 5
      FCA Board Oversight Responsibilities ___________________________________________________ 5
      Office of Examination’s (OE) Reports ___________________________________________________ 6
      Independent Accountant ______________________________________________________________ 6
      FCSBA Standard Operating Procedures __________________________________________________ 6
   AGREED UPON ACTION: ___________________________________________________________________ 6
   Evaluate Contract Administration and Workforce Requirements _________________________________ 6
     Property Manager (PM)_______________________________________________________________ 6
        Engineering Services_______________________________________________________________ 6
        PM Contracting Practices ___________________________________________________________ 7
     FCSBA Contract Management _________________________________________________________ 7
     FCSBA Staffing ____________________________________________________________________ 8
   AGREED UPON ACTION: ___________________________________________________________________ 8

APPENDIX 1 – FCSBA STAFF RESPONSIBILITIES ____________________________________________A

APPENDIX 2 – MANAGEMENT RESPONSE___________________________________________________ B




                                      TABLE OF CONTENTS
                                                                      FCSBA BUSINESS PRACTICES
                                                                                     AUDIT 03-02



BACKGROUND

     Section 5.16 of the Farm Credit Act of 1971, as amended, authorized the Farm Credit
     System banks (Banks) to “lease or acquire real property” and to “construct, develop,
     furnish, and equip” quarters for the Farm Credit Administration (FCA). The FCA chartered
     the Farm Credit System Building Association (FCSBA or Association) in 1981 as a
     “service organization” under 4.25 of the Farm Credit Act. The FCSBA’s budget for 2003
     was $2,911,100, with assessments to the Banks amounting to $1,712,900.

     The Articles of Association and Bylaws of the FCSBA (1991) designate “the Board,”
     meaning the FCA Board, to make decisions affecting the FCSBA. According to the
     FCSBA Articles of Association, the FCA Board governs the affairs of the Association. The
     Board has exclusive control and authority for the operations and affairs of the FCSBA.
     Action by the Board on any matter relating to the Association requires a majority vote of
     the Members of the Board in office.

     In 1995, the FCA Board adopted Board Policy Statement, FCA-PS-68. This policy
     statement supplements the Bylaws and outlines general boundaries for procedures. The
     policy also outlines the roles of the FCSBA President and the FCA Liaison as well as
     asset and financial management, standard operating procedures and contract
     management.

     The fieldwork accomplished during this audit was a review of operations that existed under
     the former President of the FCSBA in his role as President that ended in early March of
     2003. Most of the findings are a result of the operations that existed under the former
     FCSBA President. An Acting President assumed the duties since March 2003. The
     Acting President has made strides to improve the operations and reporting to the Board.
     Although there are weaknesses reported in this audit, the Acting President continued to
     work to remedy weaknesses found both before and during the fieldwork stage of the audit.




EXECUTIVE SUMMARY

     The audit revealed that the FCSBA could improve its reporting to the FCA Board of its
     operations. The Acting President made some improvements and others are planned.
     Although improvements have been made, the audit found that reporting to the Board
     should be more thorough and that an assessment should be conducted to determine the
     appropriate workforce needed to run all operations of the FCSBA. Specifically, it is
     recommended that: 1) the FCSBA budget be more detailed and delivered to the FCA
     Board earlier; 2) the FCSBA capital improvement plan needs updating as well as the
     component reserve fund projections; 3) the FCSBA needs to be more diligent in reporting
     to the FCA Board; and 4) an assessment should be conducted to determine the workforce
     and contractual needs of the FCSBA.




                                                                                    PAGE 1 OF 8
                                                                           FCSBA BUSINESS PRACTICES
                                                                                          AUDIT 03-02



 SCOPE AND METHODOLOGY

         The audit objective is to determine if the FCSBA is providing the FCA Board enough
         information about its operations to enable the Board to properly oversee FCSBA
         operations. The OIG reviewed the internal controls for expenses by reviewing the related
         Standard Operating Procedures (SOP), contract management, and duties of the FCA
         Liaison to the FCSBA. We also reviewed the information provided to the FCA Board on
         expenses. Finally, we reviewed the last three years’ independent accountant’s audits and
         the last two Office of Examination reports on the FCSBA. We interviewed FCSBA staff,
         the current and previous FCA Liaison, the property manager assigned to the FCSBA, and
         the chief engineer for the building.

         We conducted the audit following Government Auditing Standards issued by the
         Comptroller General for audits of Federal organizations, program, activities, and functions.
         We conducted fieldwork from June 14, 2003 through August 20, 2003. We provided a
         discussion draft report to the FCA Liaison and the FCSBA Acting President on October
         17, 2003. We conducted an exit conference and discussed the draft report with FCA
         officials, the FCSBA Acting President, and the Audit Follow-up Official on December 10,
         2003. A revised draft was issued as a result of the exit conference on January 6, 2004.
         The FCA Board agreed with the recommendations on March 3rd and the OIG changed the
         recommendations to agreed upon actions.


 FINDINGS AND RECOMMENDATIONS

Improve Budget Information to the FCA Board

         The FCSBA provides the FCA Board information (budgets, quarterly reports, and financial
         statement audits) required by the SOPs. However, improved information would assist the
         Board in providing more effective oversight of the FCSBA.

         The FCA Board has the responsibility to ensure the FCSBA is performing efficiently and is
         safeguarding the Banks’ assets. The FCSBA must present the Board with complete,
         accurate, timely, and clear information. Also, FCSBA must assure the Board that it
         adheres to the budget, justifies costs, completes planned projects, and addresses
         reported weaknesses.

         The FCSBA’s budget is the primary method for reporting to the Board the financial needs
         and expected performance of the Association. We noted the following actions that would
         improve the FCSBA’s budget proposals to the Board:

         Update the Capital Improvement Plan
             Policy Statement 68 requires the FCSBA to update and maintain a capital
             improvement plan. This requirement helps the Board ensure there is enough funding
             available to cover a 10-year capital repair and replacement program. The FCSBA
             updated the capital reserve study in 1998 and could not document any more recent
             updates.

             The Association should have the McLean Building inspected and revise the capital
             improvement plan as soon as possible. It should inform the Board of the results of the


                                                                                         PAGE 2 OF 8
                                                                   FCSBA BUSINESS PRACTICES
                                                                                  AUDIT 03-02

    inspection and of capital improvements needed over a 10-year period in its budget
    proposal. This would help the Board weigh proposals and decide between cosmetic
    and structural improvements. It would also tell the Board about the effect of delaying
    or adding building improvements to both the soundness of the building and the
    amount needed in the component reserve account.

Establish Clearer Performance Goals
    The FCSBA budget document generally describes accomplishments for the previous
    year and plans and goals for the coming year. However, the goals in the FCSBA
    budget document do not provide enough information to hold the Association
    accountable for their completion. In recent years, the FCSBA reported some
    accomplishments as due for completion before year-end. However, this did not
    always happen. Since the budget establishes accountability and performance goals
    for the FCSBA, it should provide details to the Board on all projects and operations,
    including descriptions of work, costs and due dates. This information would improve
    the Board’s ability to hold the Association accountable for performance.

Improve Consistency of Cost Information
    The dollar amounts in the narrative sections did not always coincide with the tables in
    the budget document. The presentation makes it difficult to track total costs in a
    category because the written justification included some, but not all, of the interrelated
    costs associated with the specific budget category. This lack of clarity and
    consistency in the budget document hinders the Board’s ability to provide oversight.

Develop Supporting Cost Analyses
    The budget document does not provide a cost analysis to support changes in funds
    needed for each budget area. A cost analysis would provide the Board more
    information explaining why cost changes occur and how the FCSBA spends funds
    from year to year.

Provide Budget Proposals Earlier
    Board policy (PS 68) states the FCSBA will provide a preliminary budget to the Board
    each June. The FCSBA has not met this requirement for the past 3 years. The
    FCSBA has been providing its budget in December of each year, which restricts the
    Board’s opportunity to review the FCSBA budget. During the exit conference, the
    Board members indicated the June budget requirement is premature because it is 6
    months before the new budget year.

Agreed Upon Actions:

1. The FCA Board will ensure its expectations are clear with respect to the FCSBA
   budget by:
   a. Reestablishing the budget due date;
   b. Requiring the FCSBA to include details on projects and services within its budget
      including:
          i.   Cost and completion dates; and
         ii.   Comparison to prior year’s budget and explanation of significant
               variances.




                                                                                  PAGE 3 OF 8
                                                                  FCSBA BUSINESS PRACTICES
                                                                                 AUDIT 03-02

2. The FCA Board will require that FCSBA update the capital improvement plan and the
   related 10-year schedule for the component reserve fund. The Board will also direct
   the FCSBA to incorporate the results in a schedule in the budget.

FCSBA Quarterly Reporting Improved

After approving the budget, the FCA Board monitors progress and changes in the
Association’s operations. The quarterly report is the vehicle to provide detailed, current
status of the FCSBA’s operations and this reporting has improved in past months.
Although Policy Statement 68 provides guidelines for the FCSBA’s quarterly reports,
greater definition of the Board’s expectations should be provided. To enhance the current
reporting, the Association’s quarterly reports should include:

Status of Reviews
    The Management Objectives section of the FCSBA quarterly report is designed to
    report on all recommendations from auditors or examiners. Although required by
    policy, the FCSBA has not consistently included all recommendations in its quarterly
    report. For example, the FCSBA failed to report on 1999 examination findings on
    accessibility compliance. As a result, the Association did not resolve the findings in a
    timely manner. The Board needs to ensure the FCSBA complies with the reporting
    requirement and resolves any weaknesses found by auditors or other sources.

Status of Projects and Goals
    Previously, the quarterly reports made it appear the Association was working on
    approved projects when it was not making progress. For example, the FCSBA
    requested and the FCA Board approved budget funds of $150,000 in 2002 and
    $70,000 in 2003 for upgrades for building compliance with the Americans with
    Disabilities Act. However, the FCSBA did not complete the planned improvements.
    Quarterly reports should show the status of all significant FCSBA projects and goals,
    including the original estimated completion date. If there are circumstances or
    unplanned projects that prevent performance or justify revisions to due dates or funds
    needed, the FCSBA should include this information in its quarterly reports to the
    Board. The FCSBA needs to include detailed information in the quarterly reports on
    the status of projects and goals.

Status of Expenses
    Both the 2002 and 2003 FCSBA proposed budgets included a listing of budget
    categories it exceeded during the current year. It appears the FCSBA does not report
    these budget variances until the end of their budget year, after it incurred the costs.
    The FCSBA should report expenses that would cause it to exceed the approved limit
    on a budget category since the Board must approve reallocation of funds.

    The quarterly reports should also provide the status of approved funding versus what
    has been expended. In our conversations with the FCSBA, this information will now
    be easily available monthly as reconcilement and reviews of the accounts are
    completed.

    Although the quarterly reports show the balances of the component and operating
    reserve accounts, it does not show if or how funds from these accounts have been
    used or the projected interest rates for future years. Reporting the balance and all
    activity related to these accounts would provide the Board with more information on
    the condition of the building and account balances.

                                                                                PAGE 4 OF 8
                                                                          FCSBA BUSINESS PRACTICES
                                                                                         AUDIT 03-02

         Following fieldwork but before issuance of this report, the Acting President presented the
         FCSBA quarterly report dated June 30, 2003 at the August FCA Board meeting. That
         report showed that management is addressing many of the reporting issues and has
         already started to adopt the agreed upon action below.

         Agreed Upon Action:

         3. The FCA Board will ensure its expectations for quarterly reporting by the FCSBA
            are clear by requiring the FCSBA to:
            a. report the status of all projects/building improvements that are planned and
                  actual costs for these projects, and
            b. report budget performance information with specific notations of any expected
                  reallocations of funds that would require Board approval.



Opportunities to Enhance FCSBA Operations

         We found improvement in internal controls but noted opportunity for improvement in
         practices and cost savings in the following areas:

            Updating and clarifying policy and procedures.
            Evaluating contracting practices and the use of a property manager.

         Internal Controls Strengthened

         There are various forms of internal controls over the operations of the FCSBA, including:
         FCA Board oversight; financial audits (clean opinions for the past three years); OE
         examinations; the FCA Liaison and SOPs. We found recent improvements within these
         controls.

         FCA Board Oversight Responsibilities
             The FCA Board has sole discretionary authority under Section 5.16 of the Act to
             approve the plans and decisions for the building and facilities that the FCSBA
             operates. To carry out this authority, the Articles of Association and Bylaws of the
             FCSBA grant the FCA Board the responsibility to oversee the affairs of the FCSBA.
             In 1995, the FCA Board adopted Policy Statement 68 to outline general parameters
             and policies for various operational practices of the FCSBA.

             Once the FCA Board establishes clear expectations for the FCSBA, Policy Statement
             68 should be updated to incorporate the Board’s expectations. Greater reporting
             requirements and improved information and accountability for the FCSBA will allow
             the FCA Board to maintain an independent oversight role with assurance that it is
             receiving the necessary and appropriate information to carry out its role.

             The policy also needs updating since the organizational position designated for the
             FCA Liaison no longer exists (the Director of Office of Resources Management (or
             his/her designee)). The OIG issued a report on “Board Policies” in September that
             includes recommendations that when implemented will address this issue.




                                                                                        PAGE 5 OF 8
                                                                    FCSBA BUSINESS PRACTICES
                                                                                   AUDIT 03-02

   Office of Examination’s (OE) Reports
       The last two examination reports included findings requiring action by the FCSBA.
       Some recommendations have not been adequately addressed.                  However,
       improvements in the Management Objectives section of the Association’s quarterly
       reports should remedy weaknesses found by OE and other auditors. These
       improvements should allow the Board to monitor FCSBA management’s corrective
       actions.

   Independent Accountant
       The FCSBA has contracted with an independent accounting firm. The independent
       accounting firm is currently assisting the FCSBA in setting up an improved accounting
       system that will incorporate all accounting on an accrual basis. Additionally, the firm
       will review the reconciled accounts each month providing a separation of duties and
       increased accuracy of recording and reporting expenditures for the FCSBA.

   FCSBA Standard Operating Procedures
       The FCSBA President is charged with issuing appropriate SOPs after FCA Board
       review. These governing documents require the President to keep all SOPs in a
       manner that reflects current and up-to-date policies and practices.

       The 15 SOPs we reviewed set up proper management controls and procedures.
       However, many of the SOPs have not been updated since 1994. The FCSBA should
       update its procedures to reflect organizational and operational changes; including
       updating the necessary SOPs as a result of Board policy statement changes. For
       example, it has drafted an SOP on Building Evacuation that should be issued to
       provide lifesaving procedures for the building occupants.

   Agreed Upon Action:

   4. The FCA Board will ensure its expectations for quarterly reporting by the FCSBA is
      clear by requiring the FCSBA to report specific information on all findings and
      recommendations from audits, exams, or other studies until corrective action is
      complete. In addition, all FCSBA SOPs will be updated to reflect the Board’s
      expectations for quarterly reporting.

Evaluate Contract Administration and Workforce Requirements

   Property Manager (PM)
       FCSBA has a contract with a PM for processing the engineers’ payroll and contract
       administration. The PM handles payroll for three engineering employees and
       manages fifteen contracts for the Association. The contract with the PM provides for
       month-to-month renewal and the option to terminate with 60 days notice. The FCSBA
       pays $2,362.50 monthly for these services. The extent of work the PM performs
       relative to the cost is questionable.

       Engineering Services
       The PM provides the engineering staff for the building. Engineering staff report to and
       are under the day-to-day supervision of the President of the FCSBA. The PM
       maintains slight oversight mainly through repetitive and routine monthly task reports
       from engineering staff on preventive maintenance work completed.


                                                                                  PAGE 6 OF 8
                                                                FCSBA BUSINESS PRACTICES
                                                                               AUDIT 03-02

   FCSBA staff regards the engineering staff’s extensive experience at this building as
   valuable and important to the daily operations. The 1998 capital improvement study
   for the building noted the engineering staff preserved the mechanics of the building
   well. The engineering staff also contributes to scheduling, training, and supervising
   contract employees, and helps the FCSBA with any other building issues that need
   attention.

   The FCSBA may gain efficiencies by employing the engineering staff instead of
   contracting for these individuals through the PM. Engineering staff salaries, benefits,
   taxes and other payroll expenses are completely supported by FCSBA. However, an
   assessment should be made to determine the feasibility of hiring the engineering staff
   directly. This assessment would also require the FCS Banks’ agreement to increase
   FCSBA staff resources. Further, the FCSBA should determine if there are legal
   ramifications involving hiring the current engineering staff.

   PM Contracting Practices
   The FCSBA requires the PM to adhere to the FCSBA SOP on contracting in
   managing its contracts. The PM identifies contractors, receives bids, writes contracts,
   and provides the FCSBA with monthly status reports on contracts. We found that
   contracting activities do not require a high level of effort:

      Many contracts are only reconsidered every three to five years.
      With satisfactory performance, the PM extends contracts reviewing the new
       prices for the contractor to determine if they are competitive, rather than putting
       the contract out for bid.
      The PM does not specifically attempt to locate minority or disadvantaged
       contractors.
      The PM uses contractors that already work on its other contracts.

   The FCSBA trains, coordinates, supervises, and reviews the work of the contractors
   at the building. The PM assumes a contractor is satisfactory unless it receives
   complaints from the FCSBA. The PM’s monthly status report on contracts indicates
   most contractors are performing “satisfactorily.”

FCSBA Contract Management
   The FCSBA currently manages contracts for telecommunications, the cafeteria,
   auditors and other reviews, and construction. We could not determine how the
   previous President of the FCSBA managed the contracting function. The contract
   files lacked the documentation outlined in the SOP. It is unclear how the former
   President chose the vendors. However, during the past six months, the Acting
   President of the FCSBA has sound documentation and demonstrated understanding
   of the requirements of the SOP.

   Although we could not verify that the contracting process was adequately performed
   by the FCSBA in the past, opportunities exist for the Acting President to manage the
   contracting function. With direct responsibility, the FCSBA could better assure the
   FCA Board that the Association was following its SOP. Additionally, PS 68 allows for
   the FCSBA to use FCA’s legal resources for review of larger contracts. However, with
   any added responsibility, the FCSBA should review and update its SOP to ensure it
   meets the FCA Board’s expectations.




                                                                              PAGE 7 OF 8
                                                                  FCSBA BUSINESS PRACTICES
                                                                                 AUDIT 03-02

FCSBA Staffing
   The Acting President (and Telecommunications Manager) and the Acting
   Treasurer/Secretary (formerly the Administrative Assistant) have increased their
   duties since the former President’s illness and death. (See the attached appendix of
   duties of FCSBA positions.) As noted, the Acting President has taken action to
   address several of the issues raised in this report.

   The current FCSBA staff has absorbed all responsibilities of the FCSBA with the help
   of an outside independent accountant. The Acting President has been in his “acting”
   position since March 2003. A permanent decision needs to be made for the staffing
   of the FCSBA. Determining permanent personnel and positions would provide
   greater stability in the organization. The FCSBA President should complete a detailed
   workforce analysis to determine the personnel needs of the FCSBA. The current staff
   possesses most of the required skills needed to perform the responsibilities of the
   FCSBA. An analysis should consider the current skills of FCSBA staff, training for
   staff to obtain needed skills, hiring a part-time employee to help with routine tasks, or
   hiring an additional person that has the skills that are now lacking. Rather than
   returning to the previous staffing configuration that could unnecessarily duplicate the
   skill set already present in the current staff, the analysis should look to augment the
   existing talent. Changing the previous FCSBA staff structure could create a
   substantial cost savings to the Banks.

Agreed Upon Action:

5. The FCA Board will require the FCSBA to evaluate:
   a) the need to contract with a property management company,
   b) internal FCSBA resource requirements, and
   c) the feasibility of directly hiring building engineers.




                                                                                PAGE 8 OF 8
                                                                                         FCSBA BUSINESS PRACTICES
                                                                                                        AUDIT 03-02


    APPENDIX 1 – FCSBA STAFF RESPONSIBILITIES

                                 Appendix 1 -- FCSBA STAFF RESPONSIBILITIES
                                                                                Telecom. Manager,     Administrative
                           Responsibility                           President   Treasurer/Secretary     Assistant
    Budget Preparation                                                 X
    Quarterly, Annual and Biweekly Reports to the Board                X                X1
    Financial Reporting                                                X                X1
    Create inventory schedules for fixed assets                        X
    Management objectives schedule                                     X
    Investment mgmt.                                                   X
    Strategic Planning                                                 X
    Oversight of Purchasing                                            X                X1
    Contracting                                                        X                X2
    Records management policy                                          X
    Correspondence                                                     X                X1
    Personnel Supervision                                              X                X1
    Leasing                                                            X
    Field Office site selection and negotiations                       X
    SOP preparation                                                    X
    Supervise engineering staff                                        X                X1
    ATM Functions                                                      X                                   X1
    Telephone System Management (repairs, moves, upgrades)                              X
    Coordination/Selection of Service providers                                         X
    Building communications wiring                                                      X
    Prepare/verify telecom. Billings                                                    X                  X1
    Train users on telecom. Systems                                                     X
    Affix corp. seal and sign authorize docs. authorized by SOP                         X
    Monitor and reconcile FCSBA funds and securities                                    X
    Ensure funds are deposited in approved depository                                   X
    Process FCSBA employee payroll                                                      X
    Maintain payroll records and file all required tax forms                            X
    Working knowledge of FCSBA accounting system                                        X
    Reconcile FCSBA bank accounts monthly                                               X
    Process all payables                                                                X
    Prepare/track all services by FCSBA to FCA & tenants                                X
    Manage records maintenance and disposition                                          X                  X
    Manage asset inventory                                                              X                  X
    Maintains/distributes to member banks approved Board results,                                          X1
    records, minutes & proceedings related to the FCSBA
    Issue quarterly assessment letters & ensure monies received                                            X
    Handles calls to FCSBA                                                                                 X
    Schedules/oversees training rooms at FCSBA                                                             X
    Coordinator for all functions in building                                                              X
    Process and maintain all FCSBA correspondence, general and                                             X1
    accounts payable files
    Update/maintain all art and furniture inventories                                                       X
    Maintain Kastle logs/parking                                                                            X
    Orders supplies, monitors coffee monies/program                                                         X
    In charge of entire vending program                                                                     X
    Maintain/orders office and building supplies                                                            X
    Oversee security, logs, reports & follow up on any issues                                               X
    Oversees daily operations of cafeteria service                                                          X
    In-house decorator for furniture, carpet, wall coverings,                                               X
    remodeling
    Handles/coordinates FCA and tenant requests                                                            X
    Assists Telecom. Manager with billings for monthly phone bill                                          X1
    Serves as EIC when President is out                                                                    X1
1
New duties since March 2003 when Acting President was selected.
2
Contracting for Telecommunication services.


                                                                                                            PAGE A
                                                 FCSBA BUSINESS PRACTICES
                                                                AUDIT 03-02



APPENDIX 2 – MANAGEMENT RESPONSE

              Appendix 2 – MANAGEMENT RESPONSE




                                                                   PAGE B
